TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Tests for Unreported Income During Sole
                 Proprietor Field Audits Can Be Strengthened



                                       September 9, 2010

                              Reference Number: 2010-30-105




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redaction Legend:
  1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


TESTS FOR UNREPORTED INCOME                           the basis for performing more indepth audit
DURING SOLE PROPRIETOR FIELD                          testing by identifying differences between
AUDITS CAN BE STRENGTHENED                            expenditures and income. If considerable, the
                                                      differences should be addressed during the
                                                      audit because it raises questions such as
Highlights                                            whether there are additional sources of income
                                                      that should have been reported, if expenses are
Final Report issued on September 9,                   overstated, or if the taxpayer had a source of
                                                      non-taxable income.
2010
                                                      TIGTA found 30 audits where sole proprietors
Highlights of Reference Number: 2010-30-105           may have avoided tax and interest assessments
to the Internal Revenue Service Commissioner          totaling $289,251 because of quality problems
for the Small Business/Self-Employed Division.        with the preliminary cash transaction analyses.
                                                      The majority of the quality problems involved
IMPACT ON TAXPAYERS                                   examiners not considering applicable personal
Tests for unreported income during Internal           living expense data in their preliminary cash
Revenue Service (IRS) audits of sole proprietors      transaction analyses.
are a key part of a process designed to verify        The 30 audits were identified from a statistical
that the correct amount of tax is reported. In        sample of 227 audits closed by field examiners
turn, the audit process helps remedy the              in Fiscal Year 2008. When projected to the
noncompliance that can create unfair burdens          population of 6,438 closed audits from which the
on honest taxpayers and diminish the public’s         sample was selected, our results indicate that
respect for the tax system.                           851 sole proprietors may have avoided tax and
WHY TIGTA DID THE AUDIT                               interest assessments of approximately
                                                      $8.2 million in Fiscal Year 2008.
This audit was initiated to determine whether
minimum probes for unreported income during           WHAT TIGTA RECOMMENDED
sole proprietor audits are conducted in               TIGTA recommended that the Director, Exam
accordance with IRS policies and procedures.          Policy, Small Business/Self-Employed Division,
This audit was conducted as part of our Fiscal        issue guidance to group managers to increase
Year 2010 Annual Audit Plan and addresses the         the specific written performance feedback given
major management challenge of Tax                     to examiners on the adequacy of their tests for
Compliance Initiatives. Tax gap estimates             unreported income. In addition, TIGTA
created after the National Research Program for       recommended that the Director, Exam Policy,
Tax Year 2001 showed that unreported business         issue guidance to group managers and
income by sole proprietors accounted for              examiners to reinforce the requirement and
$68 billion (20 percent) of the estimated             importance of using appropriate personal living
$345 billion gross tax gap. Despite the size of       expense data in preliminary cash transaction
the tax gap attributed to sole proprietors, the IRS   analyses.
audits only a relatively small portion of these
individuals each year.                                IRS management agreed with the
                                                      recommendations and plans to issue a
WHAT TIGTA FOUND                                      memorandum emphasizing the importance of
As called for in IRS policies and procedures,         providing specific evaluative feedback on the
field examiners are generally checking for            adequacy of minimum income probes. IRS
unreported income during audits of sole               management also plans to issue a
proprietors. However, steps could be taken to         memorandum emphasizing the importance of
increase the consistency and accuracy of              using appropriate personal living expense data
preliminary cash transaction analyses. A              in preliminary cash transaction analyses.
preliminary cash transaction analysis provides
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 9, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Tests for Unreported Income During Sole
                             Proprietor Field Audits Can Be Strengthened (Audit #200930020)

 This report presents the results of our review to determine whether minimum probes for
 unreported income during sole proprietor examinations are conducted in accordance with
 Internal Revenue Service (IRS) policies and procedures. This audit was conducted as part of our
 Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                         Tests for Unreported Income During
                                  Sole Proprietor Field Audits Can Be Strengthened




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Policies, Procedures, and Techniques Are Available to
          Assist Examiners in Conducting Audits Properly ........................................ Page 3
          Steps Could Be Taken to Increase the Consistency and
          Accuracy of Preliminary Cash Transaction Analyses ................................. Page 4
                    Recommendations 1 and 2: ................................................ Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measure ................................................................ Page 15
          Appendix V – Cash-T Analysis Spreadsheet for Individual
          Business Return Taxpayer ............................................................................ Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 20
               Tests for Unreported Income During
        Sole Proprietor Field Audits Can Be Strengthened




                 Abbreviations

EQRS       Embedded Quality Review System
FY         Fiscal Year
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
NQRS       National Quality Review System
PLE        Personal Living Expense
SB/SE      Small Business/Self-Employed
TIGTA      Treasury Inspector General for Tax Administration
                                    Tests for Unreported Income During
                             Sole Proprietor Field Audits Can Be Strengthened




                                             Background

Sole proprietors own a wide variety of unincorporated businesses and report the net profit or loss
from their businesses on the U.S. Individual Income Tax Return (Form 1040) using Profit or
Loss from Business (Schedule C). Schedule C is designed to capture the type of business and
requires sole proprietors to report the gross receipts and income from their business and classify
their business expenses into various categories.
According to a 2007 Government Accountability Office report,1 adjusted results from Internal
Revenue Service (IRS) National Research Program2 audits for Tax Year 2001 found that sole
proprietors underreported their net income by 57 percent. The National Research Program audits
did not determine how much misreporting was intentional and how much was unintentional.
However, one reason for the misreporting may be that, unlike wage earners, sole proprietors bear
full responsibility for estimating, setting aside, reporting, and paying the income, Social Security,
and Medicare taxes they determine are due from their earnings.
The National Research Program audits also estimated that almost 6.9 million sole proprietors
(39 percent of all sole proprietors) made an error reporting gross income on Schedule C, and
11 million sole proprietors overstated expenses on Schedule C by $40 billion, which reduces net
income and thus taxes. Tax gap estimates created after the National Research Program showed
that unreported business income by sole proprietors accounted for $68 billion (20 percent) of the
estimated $345 billion gross tax gap.
Despite the size of the tax gap attributed to sole proprietors, the IRS audits only a relatively small
portion of these individuals each year. This is due in large part to resource constraints and the
need to balance audit coverage across other segments of the tax return filing population, such as
corporations and partnerships. According to the Fiscal Year (FY) 2008 IRS Data Book,3 more
than 4.9 million sole proprietors filed returns with total gross receipts of $25,000 or more and the
IRS performed 72,803 field audits4 of these returns, recommending more than $1.1 billion in
additional taxes.



1
  Tax Gap: A Strategy for Reducing the Gap Should Include Options for Addressing Sole Proprietor
Noncompliance (GAO-07-1014, dated July 2007).
2
  Research conducted by the IRS to determine filing, payment, and reporting compliance by taxpayers for different
types of taxes. The IRS established the program in Calendar Year 2000 to resume measuring taxpayers’ voluntary
compliance.
3
  The IRS Data Book is published annually by the IRS and contains statistical tables and organizational information
on a fiscal year basis.
4
  Field audits are generally performed by revenue agents, tax compliance officers, tax examiners, and revenue
officer examiners, in person or through correspondence (in selected cases).
                                                                                                            Page 1
                                Tests for Unreported Income During
                         Sole Proprietor Field Audits Can Be Strengthened



Audits of sole proprietors range from reviewing tax returns and resolving questionable items by
corresponding with the individuals through the mail to a detailed face-to-face audit at their place
of business. In contrast to the more labor intensive face-to-face audit, the correspondence audit
process is less intrusive, more automated, and conducted by examiners who are trained to deal
with and focus on less complex tax issues. Correspondence audits also enable the IRS to audit
more sole proprietors, as well as other taxpayers, at a lower cost.
Regardless of the type of audit, the process typically involves an IRS examiner notifying the sole
proprietor of the audit and its scope, evaluating supporting information, and advising the sole
proprietor or their representative of the additional taxes being recommended, if any. The sole
proprietor at this point can agree with the examiner, provide the examiner with clarifying
information, or appeal the decision to the IRS Office of Appeals. In instances where the sole
proprietor does not respond to the examiner or appeal, the recommended tax changes are
assessed by default and the sole proprietor will generally have to petition the court system to
contest the assessment.
This review was performed at the IRS Small Business/Self-Employed (SB/SE) Division National
Headquarters in New Carrollton, Maryland, during the period May 2009 through April 2010.
Except for not auditing IRS databases to validate the accuracy and reliability of the information,
we conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                             Page 2
                                   Tests for Unreported Income During
                            Sole Proprietor Field Audits Can Be Strengthened




                                   Results of Review

Tests for unreported income during IRS audits of sole proprietors are a key part of a process
designed to verify that the correct amount of tax is reported. In turn, the audit process helps
remedy the noncompliance that can create unfair burdens on honest taxpayers and diminish the
public’s respect for the tax system. To assist examiners in conducting audits properly, the IRS
has a number of polices, procedures, and techniques in place at the national and local (divisional
and group) levels.
As outlined in IRS policies and procedures, we found that field examiners are generally checking
for unreported income during audits of sole proprietors. However, two steps could be taken to
increase the consistency and accuracy of preliminary cash transaction (Cash-T) analyses. The
first step involves taking greater advantage of performance feedback mechanisms, while the
other step involves ensuring that appropriate personal living expense (PLE) data are used in
preliminary Cash-T analyses.

Policies, Procedures, and Techniques Are Available to Assist
Examiners in Conducting Audits Properly
Ultimately, the IRS relies on its examiners to ensure audits are properly conducted. To assist
examiners in meeting this responsibility, the IRS has a number of control activities (policies,
procedures, and techniques) in place that are recommended in the Government Accountability
Office’s Standards for Internal Control in the Federal Government.5 At the national level, broad
policy statements provide guidance to IRS personnel that are involved in IRS programs and
activities. Of the 184 IRS Policy Statements, 36 cover audit issues, including examiner
responsibilities. In addition, the Internal Revenue Manual (IRM) serves as an important control
component nationally because it contains the official compilation of detailed instructions and
explanations of the statutory and administrative procedures for examiners to follow in
conducting audits.
Throughout the IRM, examiners are instructed to properly document, in audit files, all aspects of
their work during audit planning, testing of income and expense items, and in closing of audits.
This documentation is important because it provides the principal evidence that procedures were
followed, as well as the foundation for other control processes such as managerial reviews and
the quality measurement systems. The importance of examiner documentation is further
emphasized in management directives, newsletters, examiner training materials, and the quality
measurement standards.

5
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                            Page 3
                                   Tests for Unreported Income During
                            Sole Proprietor Field Audits Can Be Strengthened



At the divisional level, the quality measurement staffs in the IRS operating divisions review
samples of audit cases to assess the degree to which SB/SE Division examiners complied with
audit procedures. In addition to reviews by the quality measurement staff, mid-level managers
may evaluate ongoing work in open audits during their operational reviews. Operational reviews
are required to be performed at least annually to ensure work is being done in conformance with
procedures. These processes serve as a quality control by identifying managerial, technical, and
procedural problems and providing a basis for corrective actions.
At the group level, first-line managers are an important control component because they are
responsible for the quality of work performed by the examiners they supervise. They use a
variety of techniques to ensure examiners’ work is meeting acceptable standards and procedures
are followed in planning, initiating, and conducting audits. These techniques, as the Treasury
Inspector General for Tax Administration (TIGTA) has previously reported,6 include
observations and discussions with examiners and reviews of work during audits and after they
are closed. Through these observations, discussions, and reviews, first-line managers attempt to
identify problems so examiners can take prompt corrective actions.

Steps Could Be Taken to Increase the Consistency and Accuracy of
Preliminary Cash Transaction Analyses
The IRM generally requires examiners to conduct a preliminary Financial Status Analysis in the
early stages of every sole proprietor audit as part of the minimum tests for unreported income.
Also referred to as a preliminary Cash-T analysis, the audit procedure provides the basis for
performing more indepth audit testing by identifying differences between expenditures and
income. If considerable, the differences should be addressed during the audit because they raise
the possibility that there are additional sources of income that should have been reported and/or
expenses that are overstated.
Notably, the preliminary Cash-T analysis generally involves little or no burden on a taxpayer
because examiners use only information from the tax return and PLE data published by the
United States Bureau of Labor Statistics, or comparable statistics from another reliable source, to
determine whether the sole proprietor’s income and expenses are roughly equal. However, the
requirements of indepth testing will likely be far more burdensome and intrusive on the taxpayer,
due to the extra procedures required to address the differences between income and expenses.
TIGTA reviewed a statistical sample of 227 of 6,438 sole proprietor audits completed by field
examiners in FY 2008 and found 30 audits (13 percent) where our preliminary Cash-T
determinations show the business and personal expenses of the sole proprietor exceeded the
income on the return by more than $10,000 and the discrepancy was not accounted for in the


6
 Additional Managerial Involvement Is Needed to Promote Consistent Use of Accuracy-Related Penalties
(Reference Number 2009-30-124, dated September 11, 2009).
                                                                                                       Page 4
                                      Tests for Unreported Income During
                               Sole Proprietor Field Audits Can Be Strengthened



examination. The considerable difference between income and expenditures on the 30 exception
returns raise questions such as whether there are additional sources of income that should have
been reported, if the expenses deducted on the return are overstated, or if the taxpayer had a
source of non-taxable income.
******************************1**********************************************
****************************************************************************
*************************. It is important to recognize that there are a number of legitimate
reasons that a taxpayer’s cash expenditures may exceed the income reported on their return. For
example, some individuals may have received loan proceeds or are receiving financial help from
relatives or friends. Still others may be paying their expenses from savings accumulated in
previous years. However, without additional testing, the IRS does not know if the
understatement shown on the preliminary Cash-T analysis represents underreported income or
overstated expenses that could result in additional taxes, penalties, and interest.
As summarized in Figure 1, we attributed the majority of the quality problems in the audits to
preliminary Cash-T analyses that were inaccurately completed because PLE data were not used,
as required by the IRM. We found that examiners did not consider PLE data in their preliminary
Cash-T analysis in a total of 22 of the 30 exception cases, either because no PLE data were used
in the analysis (14 cases) or because no preliminary Cash-T analysis was found in the
examination workpapers (8 cases).
                  Figure 1: Results of Review of Minimum Income Probes for
                           Sole Proprietor Audits Closed in FY 2008

                                                           Number of     Percentage of   Percentage
          Reason for Inadequate Income Probe               Exceptions     Exceptions     of Sample
    Examiner’s preliminary Cash-T analysis did not use
                                                               14             47 %           6%
    PLE data
    No preliminary Cash-T analysis found in examination
                                                                 8            27 %           4%
    workpapers
    Examiner’s preliminary Cash-T analysis used PLE data
    that was less than indicated by regional Bureau of         ***1***       ***1***        ***1***
    Labor Statistics data
    Examiner’s preliminary Cash-T analysis did not
    include all appropriate income and expense items           ***1***       ***1***       ***1***
                                                                                 7
                           TOTAL                               30           100 %           13 %
Source: Our analysis of 227 sole proprietor audits closed in FY 2008.




7
    Percentages do not add to 100 due to rounding.
                                                                                                      Page 5
                                   Tests for Unreported Income During
                            Sole Proprietor Field Audits Can Be Strengthened



Problems with tests for unreported income have also been identified by IRS
quality review staff
Recent reports issued by the SB/SE Division National Quality Review System (NQRS)8 staff
have also noted problems with the quality of income probes performed by examiners. For
example, in its March 2010 report, the NQRS staff reported that examiners met the standard for
determining the accuracy of reported income in just 59 percent of the audits reviewed. While
this is a higher rate of quality problems than was identified in our report, the sample of field
audits reviewed by the NQRS includes both business and nonbusiness taxpayers. The NQRS
also reviews a broader range of procedures, such as the proper application of tax law to income
issues.
To address the concerns identified by NQRS reviews, the SB/SE Division provided additional
directions in the IRM and reemphasized the importance of minimum tests to examiners and their
managers using online publications, such as the Division’s “Technical Digest” newsletter.
However, based on our work, we have two additional steps that officials may find useful to
incorporate into ongoing efforts to improve the quality of income testing during sole proprietor
audits. The first step involves taking better advantage of performance feedback mechanisms,
while the other step involves emphasizing the need to ensure that PLE data is used in preliminary
Cash-T determinations.

Greater advantage could be taken of existing performance feedback mechanisms
to hold examiners more accountable for properly completing minimum income
probes
Although the IRM indicates that group managers may conduct informal, undocumented reviews
of case quality, it specifically requires all formal reviews to be documented using the
SB/SE Division Embedded Quality Review System9 (EQRS). TIGTA used the EQRS to assess
the formal performance feedback given by first-line managers to a judgmental sample of
47 examiners involved in the 227 audits we reviewed. Except for one examiner, we found no
written feedback to examiners in the EQRS to document managerial reviews of open and closed
audits that addressed the quality of income probe determinations or other tests for unreported
income.
As we have reported previously,10 performance feedback can be a very effective tool in helping
examiners understand and meet their responsibilities. It also provides opportunities to give
meaningful and constructive feedback on examiners’ performance, pinpoint and address

8
  NQRS reviewers evaluate audit case files to determine whether examiners complied with quality attributes
established by the IRS.
9
  The EQRS allows field managers to provide timely feedback to individual employees through performance case
reviews.
10
   Performance Management in the Large and Mid-Size Business Division’s Industry Case Program Needs
Strengthening (Reference Number 2005-30-084, dated May 27, 2005).
                                                                                                       Page 6
                                    Tests for Unreported Income During
                             Sole Proprietor Field Audits Can Be Strengthened



performance gaps, and hold examiners accountable for results. According to the United States
Merit Systems Protection Board,11 continually monitoring and providing feedback to employees
is perhaps the most important component of managing performance. In a 2003 report12 to the
President and Congress, the Merit Systems Protection Board stated:
     This component, more than any other, can give employees a sense of how they are doing
     and can motivate them to be as effective as possible. Ideally, through these ongoing
     interactions between employees and supervisors, employees learn how their work fits
     into the goals of the work unit and how it contributes to the larger mission of the agency.

An existing automated spreadsheet for making Cash-T determinations could be
used to ensure that personal living expenses are considered in sole proprietor
audits
During our case reviews, we used the automated Cash-T analysis spreadsheet13 provided with the
IRS Report Generation Software to make our Cash-T determinations. While the automated
spreadsheet is designed to guide examiners and ensure that Cash-T determinations are completed
accurately, the IRM does not specifically require examiners to use it during audits. As a result,
we did not see this tool being used consistently in the audits we reviewed even though we found
the spreadsheet to be well designed, automated, and easily accessible by examiners through the
IRS Intranet.
Notably, the spreadsheet also solicits answers to the items needed to make accurate preliminary
Cash-T determinations and provides immediate access to current Bureau of Labor Statistics PLE
data for various geographical locations across the country. The IRM also allows examiners to
use data from other sources if they are more applicable to a taxpayer’s situation. Whatever the
source, the use of accurate estimated PLE data is vital for evaluating whether the income
reported on the tax return is sufficient to pay for the business expenses deducted on the tax return
plus cover a taxpayer’s basic living expenses such as rent and food, which are not included on
the tax return.
Given the compliance risks and the portion of the tax gap associated with sole proprietors, the
benefits associated with taking steps to provide additional feedback to examiners on the quality
of their tests for unreported income and reinforcing the use of appropriate PLE data in
preliminary Cash-T analyses would seem to outweigh the costs. The costs should be minimal
considering the fact that performance feedback mechanisms currently exist and Bureau of Labor
Statistics PLE data are readily available in the automated Cash-T spreadsheet. However, there



11
   The Merit Systems Protection Board is an independent, quasi-judicial agency that oversees and adjudicates the
application of merit system principles within the Executive Branch.
12
   The Federal Workforce for the 21st Century: Results of the Merit Principles Survey 2000 (dated September 2003).
13
   See Appendix V for the format of the automated Cash-T analysis spreadsheet.
                                                                                                          Page 7
                                       Tests for Unreported Income During
                                Sole Proprietor Field Audits Can Be Strengthened



would be additional examiner labor costs from any expansion of audit effort based on a
preliminary Cash-T analysis using appropriate PLE data.
However, in terms of benefits, the additional steps may lead to potentially increasing revenue
from audits by identifying unreported income and/or overstated expenses that might otherwise go
undetected without increasing burden to compliant sole proprietors. Using the recommended
taxes and interest that sole proprietors in our sample may have avoided, we estimate that
improving the quality of preliminary Cash-T analyses in audits may potentially increase tax and
interest revenue by $41 million over a 5-year period.14

Recommendations
The Director, Examination Policy, SB/SE Division should:
Recommendation 1: Issue guidance to group managers to provide written feedback to
examiners that specifically addresses the adequacy of minimum income probes and incorporate
the feedback into examiners’ mid-year progress reports and annual performance appraisals, when
appropriate.
           Management’s Response: IRS management agreed with this recommendation and
           will issue a memorandum emphasizing the importance of providing specific evaluative
           feedback on the adequacy of minimum income probes on cases reviewed. When
           appropriate, the feedback will be incorporated into the examiner’s mid-year progress
           reviews and annual performance appraisals.
Recommendation 2: Issue guidance to group managers and examiners to reinforce the
requirement and importance of using appropriate PLE data in preliminary Cash-T analyses.
           Management’s Response: IRS management agreed with this recommendation and
           will issue a memorandum emphasizing the importance of using appropriate PLE data in
           preliminary Cash-T analyses.




14
     See Appendix IV for details.
                                                                                          Page 8
                                   Tests for Unreported Income During
                            Sole Proprietor Field Audits Can Be Strengthened



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether minimum probes for unreported income during
sole proprietor examinations are conducted in accordance with IRS policies and procedures. We
did not conduct audit tests to determine the accuracy and reliability of the information in any of
the databases. However, we did assess the completeness and reliability of the data as described
below and concluded the data were complete, reliable, and adequate to conduct our work. To
meet our objective, we reviewed a statistically valid sample of closed sole proprietor
examinations, evaluated the adequacy of controls that ensure that examiners properly perform
minimum income probes, and assessed the status of any ongoing or anticipated changes to the
process for conducting minimum income probes. To accomplish our audit objective, we:
I.      Evaluated the adequacy of controls to ensure that adequate income probes are being
        conducted during sole proprietor examinations.
        A. Documented the applicable Internal Revenue Code sections, Department of the
           Treasury Regulations, IRM (policy and procedural) sections, management directives,
           examiner training materials, and IRS public announcements and notices that provide
           the authority and procedures for conducting income probes during examinations.
        B. Prepared a memo using the information from Step I.A., along with other pertinent
           information, to describe the management controls that ensure examiners are properly
           conducting minimum income probes, including a description of the factors that
           should be developed and documented in examination case files to support income
           probes.
        C. Used the results from the FYs 2008 and 2009 quality reviews (NQRS and EQRS)1 to
           identify weaknesses in the use of income probes and assess the effectiveness of
           corrective actions taken in response to the weaknesses identified.
        D. Evaluated the training that group managers and examiners received on considering
           and applying income probes by reviewing the timing and extent of training with
           SB/SE Division officials.
        E. Assessed how well group managers are holding examiners accountable for properly
           considering income probes by evaluating the FY 2009 performance feedback


1
  NQRS reviewers evaluate audit case files to determine whether examiners complied with quality attributes
established by the IRS. The EQRS allows field managers to provide timely feedback to individual employees
through performance case reviews.
                                                                                                         Page 9
                                    Tests for Unreported Income During
                             Sole Proprietor Field Audits Can Be Strengthened



             (workload reviews, closed case reviews, on-the-job visits, etc.) given to a judgmental
             sample2 of 47 examiners involved in the 227 audits included in our review, as
             documented in EQRS.
II.     Reviewed a statistically valid sample of closed sole proprietor examinations to determine
        if examiners are properly considering income probes.
        A. Obtained an extract from the Data Center Warehouse3 Audit Information
           Management System4 Closed Case data file to identify a population of 6,438 sole
           proprietor returns that were closed with no change or with agreement to changes
           between October 1, 2007, and September 30, 2008, and involved nonfarm businesses
           filing a Profit or Loss From Business (Schedule C) with total positive income of less
           than $200,000.
        B. Worked with IRS Statistics of Income personnel to design a statistically valid sample
           of the population of closed sole proprietor returns identified in Step II.A. We selected
           a statistically valid sample of 227 closed examined sole proprietorship returns using a
           confidence level of 90 percent, a precision rate of ± 5 percent, and an expected error
           rate of 30 percent. We requested the examination workpapers for the 227 returns and
           any related tax return years that could contain workpapers for the selected returns.
        C. Reviewed the examination workpapers for the 227 closed sole proprietor returns to
           determine if examiners are properly considering the income probes described in
           Step III.
        D. Conducted limited data validation testing by matching the universe of sole proprietor
           examinations on the Audit Information Management System to the FY 2008 IRS Data
           Book5 and selecting a judgmental sample2 of 20 examinations and verifying selected
           taxpayer information to the IRS Integrated Data Retrieval System.6
        E. Secured agreement to the case review results from IRS management.




2
  Judgmental sampling was used because of limited resources and time available to complete the audit in a
reasonable time period.
3
  The Data Center Warehouse is a TIGTA Office of Information Technology function that obtains and stores
numerous IRS data files and makes them available to auditors and investigators via the Intranet.
4
  A computer system used by the SB/SE Division Examination Operations function and others to control returns,
input assessments/adjustments to the Master File, and provide management reports.
5
  The IRS Data Book is published annually by the IRS and contains statistical tables and organizational information
on a fiscal year basis.
6
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 10
                                Tests for Unreported Income During
                         Sole Proprietor Field Audits Can Be Strengthened



III.   Determined if field examiners performed the following minimum income probes.
       A. Conducted a Financial Status Analysis using the United States Bureau of Labor
          information or other comparable statistics from a reliable source to estimate the
          taxpayer’s personal living expenses for the Financial Status Analysis, including the
          preliminary cash transaction analysis spreadsheet (see Appendix V for an example).
          If the analysis indicated a material imbalance, the excess expenditures were
          considered to be a potential understatement of taxable income that requires further
          development during the audit.
       B. Evaluated internal controls to determine the reliability of the books and records
          (including electronic books and records), identify high-risk issues, and determine the
          depth of the examination of income.
       C. Reconciled the income reported on the return to the books and records, including a
          test of business gross receipts.
       D. Analyzed the taxpayer’s personal and business bank accounts (including investment
          accounts) to evaluate the accuracy of gross receipts reported on the tax return.
       E. Determined whether any deviations from the minimum income probes were approved
          by the group manager and documented in the case file.
IV.    Based on the results of the case analyses, calculated the amount of unreported income
       that was not detected along with the taxes and interests owed, and projected into the
       population. We validated the projections with TIGTA’s contracted statistician.
V.     Assessed the status of ongoing changes to improve the quality of field examinations by
       requiring examiners to perform appropriate income probes during face-to-face
       examinations.
       A. Interviewed SB/SE Division management and program analysts to identify ongoing
          changes, such as policy and procedural changes and examiner training that are aimed
          at enhancing the use of minimum income probes.
       B. Assessed the effectiveness of any ongoing changes identified in Step V.A.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
conducting examinations of sole proprietor tax returns. We evaluated these controls by


                                                                                           Page 11
                               Tests for Unreported Income During
                        Sole Proprietor Field Audits Can Be Strengthened



reviewing source materials, interviewing management, reviewing examination case files, and
researching taxpayer accounts.




                                                                                      Page 12
                              Tests for Unreported Income During
                       Sole Proprietor Field Audits Can Be Strengthened



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Stanley Pinkston, Lead Auditor
Cynthia Dozier, Senior Auditor
Debra Mason, Senior Auditor
William Tran, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 13
                             Tests for Unreported Income During
                      Sole Proprietor Field Audits Can Be Strengthened



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Research, Small Business/Self-Employed Division SE:S:R
Director, Exam Policy/Research, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 14
                                    Tests for Unreported Income During
                             Sole Proprietor Field Audits Can Be Strengthened



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $8,206,086 per year; $41,030,428 over 5 years under current
    conditions (see page 4). The potential revenue increase is related to a projected 851 sole
    proprietors1 with $10,000 or more in discrepancies between the income and expenses
    reflected in our preliminary Cash-T analyses. In making the projection, we assumed that
    there were no legitimate reasons for the discrepancies and, therefore, they would result in the
    assessment of the additional income taxes, self-employment taxes, and interest described in
    this appendix.

Methodology Used to Measure the Report Benefit:
To estimate the potential additional income taxes, self-employment taxes, and interest associated
with the projected 851 sole proprietors with significant unreported income that examiners failed
to detect, we:
1. Analyzed a statistically valid sample of 227 audits selected from a population of 6,438 sole
   proprietor returns with audits completed in FY 2008, using a confidence level of 90 percent,
   a precision level of ± 5 percent, and an expected error rate of 30 percent.
2. Ordered the administrative case files (audit workpapers) for the returns and evaluated
   whether examiners had documented the performance of appropriate minimum income probes
   in each audit and found that examiners failed to adequately perform one or more required
   minimum income probes (Financial Status Analysis, evaluation of internal controls,
   reconciliation of income reported on the return to books and record, and analysis of
   taxpayer’s personal and business bank accounts) for 30 (13 percent) of the 227 audits
   reviewed.
3. Reviewed the 227 returns by preparing a Financial Status Analysis using the automated
   Cash-T analysis spreadsheet2 developed by the IRS. For the 30 returns found in Step 2, our

1
  We are 95 percent confident that the number of sole proprietors in our population with potential unreported income
is between 572 and 1,130.
2
  See Appendix V for the format of the automated Cash-T analysis spreadsheet.
                                                                                                          Page 15
                               Tests for Unreported Income During
                        Sole Proprietor Field Audits Can Be Strengthened



   preliminary Cash-T analysis showed a potential understatement of income (estimated
   expenses exceeding reported income) of $10,000 or more. For these returns, we determined
   whether the examiner performed other steps to account for the income shortfall, such as
   documenting the taxpayer’s use of non-taxable sources of income (for example, loans or
   liquidation of an asset, including real estate or retirement funds). Also, if the examiner made
   sufficient adjustments during the audit to cover the shortage, no exception was taken.
   However, if expenses still exceeded income by at least $10,000 after the examiner’s review,
   we considered this an exception and assumed the excess of expenses over income to be
   unreported self-employment income.
4. Using the methodology in Step 3, we found that the 30 exception returns had $974,949 in
   additional potential unreported income that was not addressed by examiners. We computed
   that a total of $248,745 in additional self-employment taxes and income taxes could have
   been assessed on the potential unreported self-employment income found in the 30 exception
   cases. We used IRS computer programs to calculate that $40,506 in interest would have
   been owed on the additional taxes at the applicable Federal interest rate, for a total of
   $289,251 in income taxes, self-employment taxes, and interest.
5. Used the sample results to project that $27,659,420 in unreported income for as many as
   851 sole proprietors was not addressed by examiners in FY 2008. We computed that a total
   of $8,206,086 in self-employment tax, additional income tax, and interest could have been
   assessed on the potential unreported self-employment income for the projected 851 sole
   proprietors, using the methods described in Step 4.
6. Shared our sampling methodology with an outside statistical expert who confirmed the
   accuracy of our methodology and projection.




                                                                                          Page 16
                                Tests for Unreported Income During
                         Sole Proprietor Field Audits Can Be Strengthened



                                                                                  Appendix V

                 Cash-T Analysis Spreadsheet for
               Individual Business Return Taxpayer

The cash transaction (Cash-T) analysis spreadsheet is a useful tool in making a preaudit or a post
audit determination of the amount of income a taxpayer may need to support his or her lifestyle.
A large negative number at the conclusion of the preliminary Cash-T analysis may indicate an
understatement of income and suggests that an expansion of income probes is warranted.




                                                                                          Page 17
                               Tests for Unreported Income During
                        Sole Proprietor Field Audits Can Be Strengthened



The estimated PLE computation can be very subjective, due to examiner decisions about items to
include or exclude. Using the automated estimated PLE worksheet gives examiners the same
starting point from which to begin their estimates. Since the automated worksheet has United
States Bureau of Labor Statistics cost of living data built in, examiners can save time by not
having to look up data for each taxpayer under review.




                                                                                      Page 18
       Tests for Unreported Income During
Sole Proprietor Field Audits Can Be Strengthened




                                                   Page 19
               Tests for Unreported Income During
        Sole Proprietor Field Audits Can Be Strengthened



                                                   Appendix VI

Management’s Response to the Draft Report




                                                           Page 20
       Tests for Unreported Income During
Sole Proprietor Field Audits Can Be Strengthened




                                                   Page 21
